<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 2003</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                 DEPARTMENTS OF COMMERCE, JUSTICE, AND

                   STATE, THE JUDICIARY, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2003

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                             SECOND SESSION
                                ________
  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES
                    FRANK R. WOLF, Virginia, Chairman
 HAROLD ROGERS, Kentucky             JOSE E. SERRANO, New York
 JIM KOLBE, Arizona                  ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina   LUCILLE ROYBAL-ALLARD, California
 RALPH REGULA, Ohio                  ROBERT E. ``BUD'' CRAMER, Jr., 
 TOM LATHAM, Iowa                    Alabama
 DAN MILLER, Florida                 PATRICK J. KENNEDY, Rhode Island 
 DAVID VITTER, Louisiana            

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Mike Ringler, Christine Kojac, Leslie Albright, and John F. Martens
                           Subcommittee Staff
                                ________
                                 PART 9

               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              <snowflake>

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 80-123                     WASHINGTON : 2002

                                  COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
   
 VIRGIL H. GOODE, Jr., Virginia     
   
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2003

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                         Wednesday, April 10, 2002.

                                WITNESS

HON. WES WATKINS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OKLAHOMA
    Mr. Wolf. Welcome to the committee, and I appreciate your 
good service. And I do appreciate the impact that you have had 
here and also the impact you have had on my life. So go ahead 
and begin.
    Mr. Watkins. Thank you, Mr. Chairman. And let me say if 
there is anything along the way that I have helped on, it has 
been a labor of love. I appreciate you and your leadership and 
that of the committee; and also the staff, I would like for all 
of them to know.
    My commitment to public life has been to try to help rural 
economies, the depressed area where I was born and raised, and 
families have had to leave three different times for California 
to find jobs. I was raised in an area that has been really in a 
depressed situation since the Great Depression. One of the 
things I have had to do is to--I have had to try to lift and to 
change the culture, change the attitude; and as a result, we 
have initiated a lot of things, and we are trying to help build 
private sector jobs.
    One of those things has been helping small businesses, 
industries, trying to be able to work with ideas and new 
products and to be able to start to help those businesses, 
small businesses, entering the international marketplace. So 
one request I have is for $400,000 for Rural Enterprises, which 
is very comprehensive, probably one of a kind in this country, 
which helps with interfacing, helps with technology, helps with 
incubation, but also with trade.
    And so, as a result, we have begun to have some differences 
in letting these small businesses and industries expand their 
marketplaces. So that is one request of about $400,000.
    Then the Center for International Trade Development, which 
does a lot more of the training and seminars, I have found in a 
survey that a lot of small businesses would like to do some 
exporting and trading, but they do not know how. We stop to 
reflect on that, and we can realize that many of them become 
intimidated by either the language or the various things you 
have to go through with those countries and trying to meet the 
needs, even though we have products and commodities that could 
be utilized in those countries. So we are trying to develop a 
greater understanding.
    So I am working with not only Rural Enterprises in the 
first request, but with Oklahoma State University and the 
Center of International Trade Development and schools of 
international studies. All of them are combining to make a 
tremendous force in order to help make this a lot more 
economically privileged area, and trying to get the 
opportunities built up there.
    Then there is an additional one, I know it is a little 
bigger one, but it is one for a new product development center 
for small rural manufacturers. These other two, one is $400,000 
and the other is $200,000, but this other one that was brought 
to my attention to try to work on is about a $10 million 
request for a new product development center at Oklahoma State 
University for small and rural manufacturers.
    So those are the main ones that we have listed here. There 
is one other one that we have, but I would like to give this to 
you for your consideration and help. I need your help on these.
    Mr. Wolf. Thank you, Wes. I appreciate the testimony, and 
we will give it careful consideration.
    Mr. Watkins. Thank you so much. Appreciate all of you.
    [The statement of Mr. Watkins follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
                                         Wednesday, April 10, 2002.

                                WITNESS

HON. J. RANDY FORBES, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VIRGINIA
    Mr. Wolf. Mr. Forbes. Your full statement will appear in 
the record.
    Mr. Forbes. Yes, sir. If I could put my statement in the 
record, Mr. Chairman, and Mr. Ranking Member, Mr. Serrano. I am 
basically going to summarize and be very brief because I know 
how much time you have spent here already today.
    First of all, I just wanted to thank you for the support 
you gave us last year for the Campostella Square Community 
Center in the city of Chesapeake. That has been a big help to 
that program; it is one of the most disadvantaged areas 
probably in that city, and you were a major help in making that 
move towards a reality.
    The second thing I am just going to ask is really a general 
request, and that is for our First Responders. The money that 
they need is desperately needed across the country, and the 
more we can get that down to the local level without having the 
States be kind of a middleman to do that, the more advantageous 
I believe it is for each of those units. All of them have been 
taxed in so many ways that that help certainly is vitally 
needed.
    The rest of the requests I have are in the written 
statement. I will not take any more of your time, but thank you 
for what you did to help us last year and thank you for your 
consideration.
    Mr. Wolf. We will look at it and give it careful 
consideration.
    Mr. Serrano.
    Mr. Serrano. No, thank you.
    Mr. Forbes. Thank you for your time.
    [The statement of Mr. Forbes follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, April 10, 2002.

                                WITNESS

HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Serrano [presiding]. Mr. Bereuter, you are next. Your 
statement will be in the record, so if you could just 
summarize.
    Mr. Bereuter. Thank you very much, Mr. Serrano and Members 
of this subcommittee. I think it is the first time I have 
testified before in this Appropriations subcommittee in all my 
years, so I know I will get special treatment.
    I am here to testify and request assistance on two related 
and a third program, and I believe that Congressman Tom 
Osborne, my colleague from western Nebraska, will be here 
shortly to also seek support for two of the programs.
    Our State, along with Iowa and several other States, have a 
huge methamphetamine problem. It is growing dramatically. It is 
tying up our court system. We have explosions in laboratories; 
the number of clandestine labs is increasing, like triple and 
quadruple within a year, and we are requesting some assistance 
to the State of Nebraska in a statewide effort to fight the 
methamphetamine problem. It is a problem that is now affecting 
people down in our middle school level, in addition to many 
others in the State. I have given you some of the details about 
the growth of this tremendous problem.
    We actually encouraged the State of Nebraska to put 
together a comprehensive proposal that we might present to the 
subcommittee for assistance on this antidrug program, andso you 
have before you the request for two related grants proposed for the 
State of Nebraska for use against the methamphetamine problem in the 
whole State. The details are there.
    The second one is aimed very directly at putting together a 
clandestine lab team for which $500,000 is requested. To give 
you some idea of the growth there, last year, the team 
responded to 231 lab situations, a 413 percent increase over 
the previous year. In the first 2 months of 2002, there have 
been 42 incidents in January and February, which are generally 
the slowest months.
    This is a huge drug problem in our State that is really 
hitting us very much by surprise because we had not expected 
this methamphetamine problem to be as big as it is.
    This past week I met with one of our colleagues in the NATO 
Parliamentary Assembly that heads the Canadian delegation. 
Finally, the Canadians have passed legislation to limit the 
amount of precursor drugs that are coming into our country. But 
one of the components of methamphetamine is anhydrous ammonia; 
and anhydrous ammonia is available in agricultural supplies 
across the whole center part of the country, perhaps much of 
the Nation. So it is very hard to limit the problems here.
    The third request, separate from this methamphetamine 
problem, where we are seeking some assistance is for the Boys 
and Girls Home of Nebraska. We are requesting, and I think Tom 
Osborne will join me in this request as well, $750,000 for 
juvenile justice programs for the Boys and Girls Homes of 
Nebraska. These funds would be used for a staff secure shelter, 
a juvenile diversion program, electronic monitoring and 
tracking for low-risk youth, and group home programs.
    The Boys and Girls Home of Nebraska provides counseling and 
treatment services to facilities and children in crisis. It is 
a nonprofit agency, as you might expect from that name. It 
sponsors prevention and treatment programs that enhance the 
function of the family and individual members. They have eight 
facilities across the State, two of which are located in my 
district.
    So, Mr. Chairman and Mr. Serrano, these three items are my 
first request, I believe ever, before this subcommittee that 
relate to my State and my district, and two are directly 
related to antidrug efforts against methamphetamine; and the 
third, as I mentioned, is for a wider variety of assistance to 
families with children in the Boys and Girls Home of Nebraska.
    I will be happy to answer any questions you might have.
    Mr. Wolf [presiding]. Do you want to ask any questions 
before you go vote?
    Mr. Serrano. No, thank you.
    Mr. Wolf. I understand this methamphetamine problem very 
well. Believe it or not, the center of the methamphetamine 
trade in the State of Virginia is in my congressional district 
and Bob Goodlatte's down in Harrisonburg in Shenandoah County. 
Who would have ever thought?
    Mr. Bereuter. Also agricultural areas.
    Mr. Wolf. Yes. The staff just tells us that there was $20 
million earmarked that we put in the COPS program for grants on 
this, that is currently available now. You might want to begin 
to apply for that. We can certainly take a look at it, but the 
staff would certainly help you and tell you who to call and try 
to put in a good word for you.
    But here is money that has already been appropriated. It is 
down there. They are still formulating those numbers, so I 
would think you might still want to come in and make an 
application for this now; and we will try to help you with that 
as we look at this other thing.
    Mr. Bereuter. I was looking back, and my staff does not 
know if the State of Nebraska has applied for that program, 
perhaps not aware of it. We will check on that right away.
    Mr. Wolf. Call John and talk to John, and he can put you in 
touch with the people down there and we can encourage them. 
That way you can get something fast and furious, quickly.
    Mr. Bereuter. I appreciate your advice, and we will let you 
know about our success or lack thereof. Thank you.
    Mr. Wolf. Thank you very much.
    [The statement of Mr. Bereuter follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                         Wednesday, April 10, 2002.

                                WITNESS

HON. TOM OSBORNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA
    Mr. Wolf. Coach, go ahead.
    Mr. Osborne. I will just come in and say ditto.
    Mr. Wolf. We were telling Doug, if you are interested in 
methamphetamine lab clean-up grants, there was $20 million 
appropriated last year in the COPS program that has not been 
allocated. So we encourage Doug, and your staff too, to apply 
for that; and our staff will help put you in touch with the 
people.
    So it isn't something you would have to wait for this 
appropriations cycle, which will come a year from now. You 
could apply for it now.
    So John, here, can meet with your people and see if we can 
help you that way, if that is one of your interests, in the 
methamphetamine lab clean-up grants.
    Mr. Osborne. Yes, it really is. I am not going to take a 
lot of your time, because Doug has already presented. But in 
rural areas, methamphetamine is pretty much what cocaine and 
crack is to urban areas, and we have really seen an explosion 
out of it in our countryside. Part of the reason is you can 
manufacture meth out in the country and not be detected as 
easily, because there is an odor and sometimes they use 
chemicals from fertilizer plants and so on.
    So we had a conference in Nebraska, oh, a month or so ago, 
and were really alarmed at the statistics, the number of people 
using it. The average meth user probably commits 130 crimes 
through the year to support the habit, and the other issue is 
that it is so highly addictive it takes about 2 years of 
inpatient treatment to give you a chance to recover.
    So, anyway, what we are asking for is simply some help in 
this regard. We are asking for $1 million for a comprehensive 
four-part strategy for reducing the use, production, and 
trafficking of meth in Nebraska. What we would like to do is to 
offer a comprehensive approach to the problem.
    I think the first thing we want to do is try to get an 
assessment of the overall economic impact and social impact. So 
part of it has to do with getting a handle on the size of the 
problem, what it is costing people and the social cost. And 
then the other is to make sure that our enforcement officials 
and treatment personnel are well prepared and well trained, and 
then providing the law enforcement people with the latest 
equipment.
    As you probably know, when you dismantle a meth lab, you 
have a real problem. You don't just go in and take it apart. 
You have to wear a special suit that costs several hundred 
dollars and can only be used one time; and we have trucks that 
go around that are fairly sophisticated that go to those sites. 
So we need some help in that regard.
    The second project that we are asking for funding on, 
$500,000, is to provide for a Nebraska clan lab team, which 
again is a meth issue. And this clan lab team is in need of 
protective gear to ensure against the highly volatile chemicals 
found at a meth lab site, which I have already described. And, 
of course, just to get rid of the dangerous toxins that are 
left behind is pretty difficult because, to meet EPA 
requirements, you have to go through some extensive procedures. 
And often we have had to ask people from Kansas City to come up 
to do the cleanup because they are the only people qualified, 
and that is several hundred miles away. Of course, these 
individuals need specialized training in order to do this, and 
so we feel this is important.
    Then the last request, and I think again maybe you have 
heard from Congressman Bereuter, we would like an earmark of 
$750,000 for the Boys and Girls Home located in Columbus, 
Nebraska, to provide juvenile justice and delinquency-related 
programs throughout Nebraska. Have you heard about that?
    Mr. Wolf. We did. Mr. Bereuter covered it. I am familiar 
with it.
    Mr. Osborne. So you know what it is about.
    We find that in rural areas there is really a dearth of 
facilities that can deal with young people and juvenile 
problems and drug counseling, drug rehab, and mental health and 
all those types of things. So that is essentially what this 
would be for. And I think the Boys and Girls Home has several 
locations throughout my district; two of them are in Mr. 
Bereuter's area, too.
    So, anyway, that is what we are after; and Doug has 
mentioned that, and I will not belabor the point.
    So really two requests regarding meth and trying to combat 
that problem in rural areas, and then the request for the Boys 
and Girls Home in Columbus for kids.
    Mr. Wolf. We will try to help.
    I was telling Doug the center of the methamphetamine trade 
in the State of Virginia is in my congressional district and 
Bob Goodlatte's, down in Harrisonburg by James Madison 
University, which I would never have thought would ever come to 
that region. It is almost bucolic, yet it is there.
    So what we have done out there, we have gotten all of the 
law enforcement, the State police, the FBI, the DEA, the INS, 
all have set up a team and they are beginning to get a handle 
on it now. It has taken a lot of time, but we will be glad to 
see what we can do to help you.
    But I would encourage your staff person to come by and meet 
with John and with Mr. Bereuter's person, and maybe we can 
start the process with Justice now, and maybe you can tap into 
that money that has already been allocated.
    Mr. Osborne. That would help, yes. Thank you.
    Mr. Wolf. Mr. Serrano.
    Mr. Serrano. I just spoke to Doug downstairs, and I told 
him to really press on the issue of getting some of 
thosedollars that are already allocated. I told him, with the help of 
the subcommittee, that would make a difference.
    Mr. Osborne. We appreciate that.
    Mr. Serrano. Because that pot is there already.
    Mr. Osborne. Well, that is good to hear. We might be able 
to access it quicker.
    Well, unless you have further questions, I thank you for 
your time and thank you for this opportunity.
    Mr. Wolf. Thank you.
    Mr. Osborne. I will see you again.
    [The statement of Mr. Osborne follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, April 10, 2002.

                                WITNESS

HON. BOB FILNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Wolf. Mr. Filner.
    Mr. Filner. Well, I am not next, but I will be happy to go.
    Mr. Wolf. You are next. You are jumping ahead of Adam 
Schiff, since he is not here.
    Mr. Filner. Thank you. Nice to see you. I am not used to 
seeing you in this chairmanship.
    Mr. Wolf. You are going to be on the train.
    Mr. Filner. Right. So you will support me on this one.
    Mr. Wolf. I will check with Duncan Hunter and then we will 
see.
    Mr. Filner. Actually, I now have, by the way--and this is 
relevant to my testimony, Mr. Chairman. The county through 
which the train--there were two different counties, mine and 
his; I now have both after the redistricting.
    Mr. Wolf. Well, off the record.
    [Discussion off the record.]
    Mr. Wolf. Go ahead, Mr. Filner.
    Mr. Filner. Thank you for hearing the members, and thank 
you, Mr. Serrano, for being here.
    As I mentioned, I represent not only the urban area of 
south San Diego, I now represent the whole border of California 
and Mexico from San Diego to Arizona, which includes Imperial 
County, which is in the very southeastern corner of California. 
It is a very large agricultural county and very poor county, 
the poorest in California by whatever means you want to 
measure--over 30 percent unemployment, for example. We go crazy 
with 7 percent, so 30 percent in this county.
    What I am asking the subcommittee to do is, within the COPS 
program, the technology investment program of the COPS area, we 
are looking for telecommunications infrastructure. They have 
just not been able to build or to have--because of their 
relative poor budgets and other things, they do not have any 
communications for emergency situations between the various 
cities there, the various Federal and county and local 
agencies, especially in public safety.
    This is obviously a key county within national security, 84 
miles, as I said, along the U.S.-Mexico border, 250,000 truck 
crossings annually. They are trying to build a county-wide 800 
megahertz system.
    I asked, when I first got this county, the various cities, 
the county, the school districts in the county what their 
number one infrastructure need was, and all of them got 
together and said this is it. They have put together a $14 
million program to provide the infrastructure that will provide 
a seamless emergency communications network from the Pacific 
Ocean in through the high desert of California.
    I have in my testimony just a few incidents of what occurs, 
given their poor situation. An ambulance from one part of the 
county is trying to transport a critical heart patient to a 
hospital in Indio. They do not have a hospital, by the way, in 
this poor county. The patient becomes unconscious, the 
ambulance attendant tries to contact the base hospital, the 
sheriff's dispatch, but they cannot do it. The ambulance 
arrives and the hospital is unprepared.
    The fire department cannot contact their dispatchers. There 
is interference from Mexico because of the closeness with the 
border; and of course, they have their own system, we have 
ours, but they are not at all integrated. And so the 
interference prevents communications, and there are times when 
emergency crews cannot talk to their bases.
    A police officer in El Centro, one of the cities in 
Imperial County, was trying to tell his dispatcher that he had 
been shot. The interference prevented help coming to him on 
time. On and on these go.
    They put together, and I have it attached to my testimony, 
an emergency communications network, a high speed 
communications infrastructure for this county, which can 
become, I am sure, very important in an international situation 
because of its border geography.
    So I hope you will look at this, give some consideration to 
a place that has just been forgotten in the infrastructure 
funding from this Nation.
    Mr. Wolf. Sure. We will.
    Mr. Filner. I thank you, Mr. Chairman, and thank you, Mr. 
Serrano.
    Mr. Wolf. Mr. Serrano.
    Mr. Serrano. No. Thank you, Mr. Chairman.
    Mr. Wolf. No questions. Thank you very much for your 
testimony, and your full testimony will appear in the record.
    Mr. Filner. I understand. Thanks.
    [The statement of Mr. Filner follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, April 10, 2002.

                                WITNESS

 HON. ADAM B. SCHIFF, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Wolf. Mr. Schiff.
    Mr. Schiff. Mr. Chairman and Members, thank you very much 
for taking the time to hear from all of us today. I can only 
imagine what your schedule must be like, but I wanted to share 
with you a couple of funding priorities for my district and 
some that have a national impact as well. And I recognize that 
you are operating under some tough fiscal constraints and there 
are a whole lot of worthy projects and programs that deserve 
funding that you will have to struggle with.
    The first I wanted to talk about briefly today is the Law 
Enforcement Tribute Act. We have requested $3 million to fully 
fund the Law Enforcement Tribute Act, H.R. 2624. This bill that 
I authored, along with original cosponsors Tom Davis and 
others, a bipartisan measure, provides a Federal contribution 
to States and localities that are trying to build memorials 
honoring slain public safety officers.
    In just one of the cities I represent, for example, 
Glendale, they have lost four police officers. But like many 
police departments, they do not have the resources, certainly 
not in their budget; and often it is very difficult for them to 
raise the funding through contributions just to erect a proper 
memorial to those that have given their lives in the line of 
duty.
    The authorizing bill passed the House Judiciary 
Subcommittee on Crime. We expect it to be included in the 
conference report for the Department of Justice reauthorization 
bill. This year's $3 million appropriation would allow a 
minimum of 20 law enforcement memorial grants to be awarded 
around the Nation.
    Especially in light of the events of September 11, when 70 
police officers and 343 firefighters lost their lives, it seems 
an appropriate time for Congress to partner with local 
communities and help them honor the sacrifice of those that 
have given their lives to serve the public.
    I would also like to highlight a couple of other programs, 
one in the city of Burbank, which I represent. They are working 
to develop a two-part program for teenagers. We are requesting 
$200,000, either from the Safe Schools Initiative or the 
Juvenile Justice Programs account, which would improve the 
development of a conflict resolution curriculum for middle 
schools, as well as a teen counseling program, which would 
include peer counseling or youth-oriented counseling for drug 
abuse, sexual abuse, and alcohol abuse.
    I would also like to highlight the need for resources for 
DNA backlog elimination. I think this is a very important 
national priority. We are requesting $50,000 from the Crime Lab 
Improvement Program in the city of Glendale. They have a 
backlog and are trying to resolve 24 forcible rape cases and 
six unsolved homicides, and I believe that assistance in 
removing this backlog may help them resolve some of these 
crimes which are as old as 20 years, in some cases.
    In addition to this local request, I would urge your 
consideration for national funding on DNA backlog. I was an 
assistant U.S. Attorney for 6 years, and I am convinced that an 
investment in DNA nationwide is one of the single most 
effective ways of solving unsolved violent crimes. Dollar for 
dollar, I think it is a tremendous investment.
    Also, I would like to encourage your support for the Safe 
Return Program that the Alzheimer's Association has worked on 
that assists in the identification and safe and timely return 
of individuals with Alzheimer's disease who wander and become 
lost.
    I also want to draw your attention to two areas of concern 
in the President's budget, the elimination of the COPS funding, 
as well as the elimination of funding for the SCAAP program. 
The California delegation, I am sure, will be joined by other 
States as well. We are working on a bipartisan letter of 
support for SCAAP, which has a tremendous impact on States like 
California that have large immigrant populations.
    That, in an abbreviated form, is what I wanted to share 
with you today. Again, I know it must be a long day for you 
all, but it is wonderful you give Members a chance to comeand 
personally make an appeal.
    Mr. Wolf. Well, thank you very much. And your full 
statement will appear in the record; we will give it careful 
consideration.
    Mr. Serrano.
    Mr. Serrano. No. Thank you so much for your testimony.
    Mr. Schiff. Thank you both very much. Have a good 
afternoon.
    [The statement of Mr. Schiff follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, April 10, 2002.

                                WITNESS

HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Wolf. Mr. Crowley and Mr. Farr, and then Mr. Rothman.
    Mr. Farr. Thank you very much, Mr. Chairman. As a fellow 
appropriator, I am always impressed and overwhelmed by the 
diversity of issues that you have before your committee, and I 
bring one that most people don't even think about and probably 
should even be in the title of your committee, and that is the 
issue of the oceans.
    You are the committee, really, not even Defense; the Navy 
doesn't get into ocean management and ocean resources, and that 
being part of NOAA, and NOAA being the biggest path of the 
Department of Commerce, we kind of get lost. So it really is a 
wonderful opportunity to be able to come and sort of give you 
the perspective of one legislator who is really involved in the 
oceans.
    I know you don't have them so much so in your districts, 
but----
    Mr. Wolf. We go to them, though.
    Mr. Farr. You go to them. But, you know what, as I told 
former Chairman Rogers when I was trying to make a point, the 
waters of the ocean start in the interior and they flow. They 
flow across this country in our rivers, and whatever they pick 
up, good or bad, whatever health they are in for spawning, good 
or bad, is essentially the health of the Nation. So we really 
are symbiotically related to the inland as much as to the sea.
    What impressed me in California when I started looking at 
the State, is really, if you look at the coastal zone of 
California, the coastal zone of this Nation is where most 
people live in the whole United States. It is where our 
commerce sort of begins and ends if it is coming onshore or 
going offshore. They say that one out of every six jobs is 
related to the marine environment; that one-third of our 
national GDP is produced in the coastal zone, whether in 
fishing, transportation, recreation or other industries. It is 
one of our greatest national assets, but it is really being 
neglected.
    We have Jean-Michel Cousteau, who is going to try to be 
here today along with one of our colleagues, to talk to you 
about what he is seeing happening. And I just shared with him 
that we created a caucus on the oceans. And I cochair that with 
a bipartisan cochair, and I would just like to highlight a 
couple of things that we have prioritized.
    One of them is the National Marine Sanctuary program. The 
National Marine Sanctuary program is kind of like our national 
parks. We have created 13 of these, and we can add more. The 
difference is that in our national parks, we kind of protect 
them. In marine sanctuaries, we can protect them or we can 
allow them to be commercialized. So the intent of Congress was 
to create something that would be both to protect natural 
resources and to educate people about what the ocean 
environment is all about. However, we would still allow 
commercial fishing to go on--we don't allow that to go on in 
national parks, like commercial timbering--certainly shipping 
and marine access, recreation. Among the other things we do is 
we do some conservation, education and science stuff.
    My specific requests are really if this committee could 
consider a small increase to the President's O&M request to 
address the substantial backlog of vessel maintenance and 
facility improvements for the sanctuaries. We have this 
responsibility, but the only way we can get to it is by boat. 
The facilities that these sanctuaries have--and these are not 
big boats; these are little, tiny boats--some of them have 
nothing, and we need to put some attention to that.
    Also, I hope the committee will support the President's 
full request for the PAC account, and ensure that the levels of 
funding are preserved throughout the appropriations process. It 
is not a big budget. It is about, what, $15 million, I think. 
But to those areas, as you know in the area you represent, the 
Luray Caves, it is certainly a destination that attracts 
people, and that is what these marine sanctuaries are. They are 
areas that attract people.
    The other area that is very important is the marine 
protected areas. These include fishery management 
zones,national seashores and parks and wildlife refuges, and they are 
very contentious right now. They are just getting started, and they are 
contentious because there is no specific information that allows for a 
broad range of uses and benefits that could be programmed.
    I frankly think we are going to end up in the ocean like we 
do on land. We are going to end up zoning part of it that you 
can do this in certain places and you cannot do this in other 
places; and it will be based on inventory information. That is 
going to come out of this kind of study. And what we are 
getting is, how do we better know what to protect and how do we 
know where we can allow it to be commercialized and utilized. 
So I suggest that we really need to do that quickly, because 
right now it is just contentious.
    People say, I want to go there and do this; and others say, 
you cannot go there because we think there are valuable assets 
there. We just do not have enough information. So most courts 
and most decision-makers, if they are uncertain about 
something, they delay it. So we need to put some emphasis and 
control language in there, some budget language, to say, get on 
with getting this information together.
    And I would just like to say that, like all of us, we go 
home to our districts and learn about these incredible 
programs; and then everyone comes here. I think one thing we 
all need to do in all of our committees is require all of our 
governments, particularly the government agencies, to be better 
coordinated and to work in a unified fashion. They all have 
different offices and different places and different staffs. 
And one can tell you why the other cannot do what they want to 
do, but we have to force some more coordination.
    And, finally, I would just like to emphasize the need to 
better protect our marine fisheries. I think Sylvia Earle made 
it very clear to me when she said that we don't have Americans 
to go out and hunt for their meat at night, and yet a little 
over 100 years ago we did. If you wanted meat on the table, you 
had to get it yourself. But when it comes to fishing, we do go 
out and hunt. We hire commercial fishermen to do it, but other 
than some catfish and trout and some salmon, most of the fish 
that are eaten in restaurants are just wild game or wild stock. 
We have caught 4.6 million tons in 2000 alone, and of that, we 
have put about $3.6 billion into our economy.
    So it is a national asset, but it has very poor, if any, 
management. And we are going to kill the goose that lays the 
golden egg until we understand how to manage these wild 
resources and not just take them. We know that one-third of our 
assessed U.S. stocks, and these are the ones that are 
commercial, a lot of fish we don't eat, but the ones that we do 
eat, of that a third are severely overfished. It is just a 
matter of when they are not going to be there anymore. The 
trouble is, they also may be part of the food chain for some 
other fish that may not be there, and so on and so on.
    So I know Tom Allen, our colleague, has witnessed the 
devastation of what happens when you have the collapse of the 
New England cod fishery. We are seeing a dramatic decline in 
West Coast groundfish, which are the rockfish; and we would 
just ask that we do everything we can to get this better 
understood by gaining information so that we won't lose those 
jobs. This is like a base closure or like a corporation leaving 
town, because these are the only things a lot of our local 
economies live on, the fishery industry.
    So stock assessment is where we need to have an increased 
appropriation, and we would also beg you to consider more 
rigorous funding for both the fisheries' observer and 
cooperative research programs.
    ``Cooperative'' is where you get the commercial fishermen 
to give incentives to have the people come on their boats and 
go out and do scientific studies on marine boats; instead of 
having just a government-owned ship and all the scientists 
waiting to get on the government ship, when there is a 
commercial boat which could be going out to sea and making some 
money and helping scientists get their information.
    So those are the things I ask for, and this committee is 
really so key to whether our coastal America and the coastal 
economy of America will be able to be sustained or, I think, 
lost. And that is why I am here today, to plead that you give 
really strong consideration to the NOAA side of your budget.
    Thank you very much.
    Mr. Wolf. Well, thank you. I appreciate your testimony. And 
not that it is bad to come here to ask for something for your 
district, but I am sincerely impressed that you just talked 
about general issues of your concern and did not ask for a 
particular project for Coronado or someplace like that.
    So we will try to do that. We raised the issue of 
fisheries, overfishing, with both the Administrator of NOAA and 
also with the Secretary of Commerce when he came before us. But 
we will try to take it all into consideration.
    Mr. Farr. The wonderful thing about oceans is that the 
water doesn't know political boundary lines. And, frankly, of 
that water, it is all owned by the government, so we have no 
property rights issues and all that other stuff. So the only 
people that will hustle for it are essentially interest groups, 
either pro or con, on the issue of environment. So you have a 
big judicial role to play in where we allocate our resources.
    So I thank you for your dedication to this job.
    Mr. Wolf. Mr. Serrano.
    Mr. Serrano. Just a quick comment and clarification.
    My district in the Bronx does have the Long Island Sound on 
the side, so we take great interest in the ocean. And, of 
course, I was born on an island, and it wasn't Manhattan, so I 
started off surrounded by the ocean.
    But I want to take this opportunity also, Sam, to commend 
you. Because from the day I met you, you have defended our need 
to be fair to the ocean and to treat it properly. And you are 
really a champion on this, and I mean this sincerely. I tell 
you that in private, it is not important. I am telling you in 
public here for the record. So keep it up, and we will continue 
to do our best.
    Mr. Farr. Well, thank you, and now we are going to put you 
on the Oceans Caucus, since you are born of it and represent 
it.
    Mr. Serrano. As long as you don't put me in the ocean.
    Mr. Farr. Sounds like a very ``Sound'' thing to do.
    [The statement of Mr. Farr follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, April 10, 2002.

                                WITNESS

HON. STEVEN R. ROTHMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW JERSEY
    Mr. Wolf. Okay. Mr. Rothman and then Mr. Crowley.
    Mr. Rothman. I hope you don't ban charts in here. These are 
good ones, and I will just show them to you, Mr. Chairman.
    Mr. Chairman, it is a pleasure to be with you. And Mr. 
Ranking Member, Mr. Serrano, it is always a privilege and 
pleasure, as well.
    I am here to talk about two programs. One is the Community 
Oriented Police Services, COPS, Safe School Initiative, and the 
second is the NOAA program, the Coastal and Estuarine Land 
Conservation Program. Let me start with the COPS program.
    As you may remember, I came here last year as a new member 
of the Appropriations Committee.
    Mr. Wolf. I think you had sneakers on, if I am not 
mistaken.
    Mr. Rothman. You are absolutely correct, and my back is 
feeling much better, thank you.
    I wanted to tell you that I had been successful the year 
before as a member of the Judiciary Committee in getting the 
Secure Our Schools Act passed unanimously by the Judiciary 
Committee. That is the matching grant program where schools can 
put up half the money and the Feds will put up the other half 
to get security cameras and police in the schools, and training 
if the school board wishes to do that. And you were kind enough 
and generous enough to fund that program to the tune of $5 
million.
    Now, it had been authorized at $30 million as a nationwide 
program, but I certainly understood, its being a new program, 
that $5 million was very generous. I just wanted to report to 
you that it has been a tremendous success.
    I did want to also introduce you to someone. Last year, 
when I told you about the need for the program, I read to you, 
among other things, a letter from a middle school in Saddle 
Brook, New Jersey; and I read to you a letter from a young girl 
named Andrea Katz, who at the time was 14 years old, from 
Palisades Park, New Jersey. And Andrea Katz is here with her 
mom and dad, Emily and Warren, to say thank you. I know rules 
don't permit her to speak, but she is here and her presence is 
to say thank you.
    Mr. Wolf. Well, her name will appear in the record, so give 
her full name.
    Mr. Rothman. Andrea Katz, K-A-T-Z, from Palisades Park, New 
Jersey. She wanted to say thank you. And since then, since she 
wrote to us--and she wrote to the President, actually, and sent 
me a copy, and said, ``You know, you would think that 14-year-
old eighth graders would be thinking about all kinds of 
carefree things, but we are not. We are afraid in our 
schools.'' it was after the shooting in Santee, California.
    And she wrote, ``I beg of you, Mr. President,'' and then 
she wrote to me to say, ``Please, can you help too, 
Congressman, to do something about this to make our schools 
safe?'' .
    So I had my Saddle Brook middle school students write me, 
the middle school from Palisades Park, and then months later on 
another issue. But 2 months ago, I had an eighth grade girl 
from Elmwood Park, New Jersey, again in my district, get 270 
signatures on a petition saying she was afraid for her life; 
that there were gangs and guns being threatened to be brought 
to school, et cetera, and she needed help. And we helped her 
get money under the COPS program.
    To give you an idea of the overdemand, if you will, for 
this program, the best statistic we could put together, the 
most relevant one, was for the COPS program itself--which, by 
the way, administers the Secure Our Schools Program--it 
basically is two to one. Just about half of the applications 
for monies under the COPS program were able to be funded. Which 
I guess is somewhat good, but that means that half the kids in 
the country are looking over their shoulders wondering if they 
are going to get attacked or somebody's going to come into the 
building and hurt them.
    It may sound melodramatic, but it is truly the way the kids 
are today. They are worried. And I have two kids who are in 
school still, an eighth grader and a fourth grader, and I know 
what is on their minds. It is in the back of their minds, but 
it is there. And mine is not a particularly poor district, it 
is a working class, economically speaking, district; and there 
is a huge demand for the program.
    So I would first say, thank you for the $5 million last 
year in the face of a $30 million authorization. I think that 
trial program has borne out the need for the program, and I 
would, with respect and humility, ask you to consider 
increasing that $5 million closer to the $30 million that had 
been authorized for this national program.
    You can imagine that the $5 million, with the 40,000-some-
odd schools in the Nation, doesn't go that far. Granted, there 
are other programs that deal with other aspects of school 
safety, but not like this, not a matching program, which 
obviously eliminates the concern about a Federal mandate. These 
are schools that are ready to put up half the money for the 
Federal Government to help them make their schools safe. That 
is number one.
    The other program, with your indulgence, and this is where 
I am going to rely on my visual aids. Here is the beautiful 
Garden State of New Jersey. You have heard about it, I know. 
Here is Orange. This is the Hudson River here. The Orange 
district is the Hackensack Meadowlands, 8,500 acres 
undeveloped; 20 million people live around thismetropolitan 
area. And, again, to thank you and to remind you of the John Heinz 
National Wildlife Refuge at Tinicum.
    Mr. Wolf. Isn't that the one I told you about?
    Mr. Rothman. It is, indeed, Mr. Chairman, and it was part 
of my inspiration to come before this committee, to know that 
it could be done; that adjacent to an urban center a portion of 
land that had been made a wasteland in the most literal sense, 
a land filled with waste and given up on, could be made into a 
magnificent ecological refuge and a place of open space and 
beauty and education and restoration for an urban population.
    Mr. Wolf. That is near my old neighborhood, where I lived.
    Mr. Rothman. I think that occurred to me when I brought 
this to your attention, because I knew you obviously----
    Mr. Serrano. He is good.
    Mr. Wolf. He is good.
    Mr. Rothman. No, no, no.
    Mr. Wolf. All Republicans are not rich.
    Mr. Rothman. But many of them have good hearts.
    Mr. Wolf. Of course. My dad was a Philadelphia policeman.
    Mr. Rothman. Yes. So that is what we want to do.
    New Jersey is the most densely crowded State in the United 
States. This is the most densely crowded region in the most 
densely crowded State. We have 8,500 acres we can preserve. We 
had $1.2 million last year from this committee to match, and we 
have the New Jersey Meadowlands Commission all ready to match 
the $1.2 million as the Federal partner. That is $2.4 million 
to acquire property. We have the Army Corps of Engineers, the 
U.S. Fish and Wildlife folks, and we have figuratively put a 
green fence around this 8,500 acres to prevent development. Now 
we just need to pick off these pieces of property.
    The Meadowlands Commission just so happens, on this map, to 
have a breakdown of the specifics: Losen Slote Creek Park, 
Carlstadt-Moonachie Wetlands, Bellman's Creek Wetlands, 
Petrillo Tract, Mill Creek, Penhorn Creek, Guarini Site--you 
may remember that name--FD&P Enterprises, Kearny Marsh, Saw 
Mill Creek Wetlands, and Berry's Creek Wetlands. For $5 million 
we can buy those pieces and really--and I want to pick the 
right metaphor--put the nail in the coffin of any efforts to 
develop this 8,500 acres.
    Again, if we can do this--and we have just about done it, 
and this year's allocation, I think, will send the final signal 
to the developing community that we have enough brownfields and 
Superfund sites in New Jersey to redevelop, Don't develop the 
last 8,500 acres of open space in the Meadowlands of New 
Jersey, which would be an urban park like the one near Philly, 
outside of Manhattan, which is right here.
    Can you imagine if we saved this, as we are going to do 
with your help? Twenty million people will see this as a model 
of what can be done in the most urban area of the United 
States, a model to urban areas around the country and to every 
urban center in the world. If we can do it in New Jersey, they 
can do it anyplace. So if you can come up with $5 million, we 
can nail that one shut.
    Again, I thank you. We have the specific, the Federal 
partner, we have the properties on the merits; they will all 
work.
    Thank you for your caring, your support, your good hearts, 
and your deep pockets.
    Mr. Serrano. You are embarrassing me.
    Mr. Rothman. And I hope you will continue to care and 
support these two great projects.
    Mr. Wolf. Thank you. I have no questions.
    Mr. Serrano.
    Mr. Serrano. I just want to say that the idea of bringing 
constituents and maps is very effective, but I do want to say 
to your constituents that this is what we call in Spanish a 
real ``nudge'' on behalf of the district. And that is what we 
get paid to do.
    And I certainly have supported you in the past, I will 
continue to do so, as long as you promise that none of that 
land will be used to steal the Yankees from the Bronx.
    Mr. Rothman. No, that is okay. As long as you don't steal 
the Nets, we won't steal the Yankees.
    Mr. Crowley. Steal?
    Mr. Rothman. Thank you, Mr. Chairman.
    [The statement of Mr. Rothman follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, April 10, 2002.

                                WITNESS

HON. JOSEPH CROWLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Wolf. Mr. Crowley, Mr. Stupak, and then Mr. Pallone.
    Mr. Crowley, your full statement will appear in the record.
    Mr. Crowley. Mr. Chairman, thank you very much, and I just 
wanted to ask, looking at Mr. Rothman's map here, where is 
Wolf's Cove? I didn't see it on any of the maps.
    Mr. Rothman. It is in the middle of the Wolf Environmental 
Preserve in Serrano Park.
    Mr. Serrano. We are trying to run a serious committee 
meeting here.
    Mr. Rothman. Right.
    Mr. Crowley. Mr. Chairman, let me thank you for all your 
work on the CJS bill last year and what you will do this year, 
and express my continued desire to work with you and the entire 
committee on developing important funding priorities for our 
Nation.
    I would also like to recognize my good friend from the 
Bronx, Congressman Jose Serrano, who has worked tirelessly on 
behalf of his constituents, our entire city and the Nation from 
his position on this very, very important committee here in 
Congress.
    As America continues to fight the war on terrorism, the 
funding this committee provides to the men and women in the 
diplomatic corps and to the Departments of State and Justice 
takes on an even more important role today.
    I will begin by speaking about several important projects 
in my congressional district--and I hope, Mr. Chairman, I will 
not disappoint you by doing that--for which I am requesting 
funding from this committee. Then, as a member of the House 
Committee on International Relations, I would like to comment 
on some of the important international aspects covered in this 
critical legislation.
    Domestically, the first project has to do with the 
establishment of a community-based technological center to 
assist at-risk youth. I am very grateful to this committee, to 
you, Mr. Chairman and Mr. Serrano, for allocating last year 
$400,000 for the creation of a modern technology center, the 
NETS or the Neighborhood Enhancement and Training Services 
Center, the portion that I represent in the Bronx in New York. 
Congressman Serrano and myself were present to present the 
check to the center just a few short weeks ago, and I am 
grateful for his attendance.
    I again seek the same funding assistance for another high-
tech center, this one catering to the area residents in the 
Corona portion of my district in Queens, New York. Funding for 
these types of after-school and weekend community centers are 
vital as they serve as a safe haven for young people to spend 
their idle time during their after-school hours.
    Additionally, the community for which I seek this funding, 
Corona, is a diverse neighborhood made up--a broad swath of new 
Americans from throughout Central and South America and the 
Dominican Republic. In fact, National Geographic has called the 
Corona-Elmhurst, Queens, neighborhoods the most diverse ZIP 
codes in the United States; and in fact, they are probably the 
most diverse areas of the entire world.
    The second request that I place before this committee is 
for the Citizens Committee of New York to continue their local 
anticrime initiatives, such as supporting the expansion of 
community policing and neighborhood Crime Stoppers throughout 
the City of New York. This not-for-profit has successfully 
handled many Federal, State, and local grants before dealing 
with community-based groups who are combating crime within 
their neighborhoods. They have proven successful at working 
with citizens, local community Crime Stopper groups, and the 
police to form a cohesive unit to make the City of New York 
safer for all its residents.
    This funding will be distributed to several neighborhood 
groups to undertake antigraffiti initiatives, print community 
newsletters on ways to avoid crime, and the purchase of 
anticrime coordination tools, like walkie-talkies, among other 
purposes. This funding will assist local community Crime 
Stopper groups and Neighborhood Watches to better protect their 
communities and battle the scourge of crime, drugs, and gangs.
    These are just two examples of a number of important 
funding priorities in our country, and I appreciate your 
granting me this opportunity to appear before you today to 
address several key needs for my constituents and the people of 
New York City.
    With regard to international issues, as both the 
representative of one of the most diverse congressional 
districts in our Nation and as a member of the Committee on 
International Relations, I would like to implore this committee 
to recognize the value inherent in the United States' playing a 
key role in the international community and, in particular, 
supporting international peacekeeping activities. I realize the 
Committee on Appropriations is hampered by budget constraints, 
but international peacekeeping is a serious funding issue, and 
cannot and should not be ignored.
    Mr. Chairman, from fighting for improved human rights in 
China to your excellent work in both highlighting and then 
working to stop the trafficking of conflict diamonds and their 
role in supporting rebels in countries such as Sierra Leone and 
other African nations, I applaud your leadership on 
international issues. I very much look forward to working with 
you to stop the trade of these diamonds and to support an 
active U.S. role in foreign affairs.
    Finally, I am also seeking funding for a worthwhile peace 
resolution program that serves my ancestral homeland of 
Ireland. I am seeking funding for the Mitchell Scholarship 
Program, a worthwhile program named after former Senate 
Majority Leader George Mitchell. The Mitchell Scholarship is a 
competitive scholarship program that allows Americans to pursue 
a year of postgraduate study at a university in the Republic of 
Ireland and in Northern Ireland.
    The Mitchell Scholarship was established in 1998, in 
conjunction with the signing of the Good Friday Peace Accord, 
and acts somewhat like the Rhodes Scholarship program, but for 
Ireland both north and south of the border. By bringing 
scholars together, we are able to build a multiethnic, 
multireligious future for the residents of all of Ireland.
    Mr. Chairman and Mr. Serrano, and to the other members of 
this committee, I look forward to a productive year in working 
with each and every one of you and everyone in the Chamber for 
our shared goals for a better America and for a better world; 
and I thank you very, very much for this opportunity to come 
before you.
    Mr. Wolf. Thank you, Mr. Crowley. I have no questions for 
you.
    Mr. Serrano.
    Mr. Serrano. Just to thank you, Joe, for the work you have 
done in the broadcaster area and to tell you, Mr.Chairman, that 
Mr. Crowley speaks of diversity. There isn't a single country in the 
world that is not represented in his district, and he has firsthand 
knowledge of many of the issues you deal with, Mr. Chairman, because he 
sees the after-effects of people who come here and how they deal with 
those issues.
    [The statement of Mr. Crowley follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wolf. Mr. Stupak, Mr. Allen and Mr. Greenwood, do you 
all want to kind of come up together, or however you want to 
move it along.
    Mr. Greenwood. I think Allen and Weldon and I can do it 
together.
                              ----------                              

                                         Wednesday, April 10, 2002.

                                WITNESS

HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN
    Mr. Stupak. Thank you, Mr. Chairman and Mr. Serrano, for 
the opportunity to be here. I want to mention two projects in 
my district, international programs. First, I would like to 
mention the COPS program, as the founder and cochair of the Law 
Enforcement Caucus. That is a program near and dear to my 
heart. I hope we would fund the program at 330 million, what we 
did last year. I am sure you received your letter from the U.S. 
Conference of Mayors there supporting it. There has been one 
letter sent to the Budget Committee, a letter being circulated 
to appropriators. Hopefully, you will keep this vital program 
going.
    Last year you helped up us with the Charlevoix-Cheboygan-
Emmett Dispatch Authority. We are back again to try to get some 
more money. You gave us part of what we needed the last year. 
It is for 911 emergency services. These are three small 
counties in lower northern Michigan. They all work together. 
All law enforcement, police, fire and EMT are all together. 
They have to upgrade and for these small counties--and they are 
doing a three countywide 911 merging services--it is quite 
expensive, for $1 million ten thousand. We are asking for that 
to finish the upgrade there.
    The Thin Blue Line of Michigan is another program you 
funded last year. I think we received 25,000 for it. Thin Blue 
Line is really a volunteer organization that started in 1999. 
What it really is, is police officers. The founder is a woman 
whose husband was a state trooper who got killed. What they 
found was no matter what agency you are with when a tragedy 
happens like that, there is no one who really helps coordinate 
it. So these women volunteer their time, drive all over the 
State of Michigan to help them out, let them know what their 
benefits are, put them in contact with the right people. Again 
no matter what agency it is, they will go do it. Last year you 
helped them--we had the budget cuts. You helped them with 
$25,000. We talked to them again this year and they said if you 
could see any way to give us any more money, $185,000, just so 
we can keep people round the clock and pay them a little bit of 
salary, they would appreciate it. It is strictly a volunteer 
program but they do have some costs, and before they always dug 
into their pockets and they appreciate your helping them last 
year. We are back this year asking for a little bit more.
    Sault Ste. Marie of Chippewa Indians law enforcement, they 
are asking for $57,000 just for police radio and computer 
equipment, a small amount but in my rural district it goes a 
long way, just so they can communicate with each other. They 
put in most of the money, but they are right on the border with 
Canada and the radios they want to get is the upgrade of what 
they have so that they can speak with the U.S. Border Patrol, 
U.S. Customs, and even the Royal MountedPolice in Canada. We 
work closely together up that way.
    I know Senator Levin and others in the Senate are working 
with us on the Regional Community Policing Institute. You 
helped fund that in the past. There is one at Michigan State 
University. As you know, it is used for training and education 
of law enforcement agencies to try to accelerate the growth and 
initiative of new community police training and dissemination 
of information, and I would ask you to give that serious 
consideration.
    One more if I can, another Native American, Lac Vieux 
Desert Tribal Police Detention Facility. This is way in the 
western end of the Upper Peninsula. Even though it is on Native 
American ground, the tribe owns it, they built it. They paid 
about $1.5 million. It is used by Michigan State Police, used 
by the County of Gogebic. That is way on the western end of the 
Upper Peninsula. They built it and they have basically no money 
to operate it even though each agency tries to kick in a few 
bucks. They are asking for $545,000 to really operate it. They 
did the bricks and mortar, but they are struggling to keep it 
operational.
    Last but not least, Mr. Chairman, the Byrne Grants. You 
have always been great. Appropriators have always continued the 
Byrne Grants, Local Law Enforcement Block Grants, but we always 
ask for a specific line for National Night Out and you have 
always been great about giving it to us. Once again we ask that 
there be an earmark of $400,000 for National Night Out. Since 
September 11, it is even more important that our communities 
come together, and that is one way to do it, in August, the 
first week in August of every year.
    Last but not least, two commerce programs, if I may. The 
State Maritime Academies, as you know, there are six of them. 
We usually get about 13 million each for them. Again we request 
that amount.
    More importantly, I would ask for report language to direct 
that a minimum of 500,000 of that 13 million to be allocated at 
least to every one of them. There are six of them, and if they 
all got a minimum of 500,000, if my math is good, that is still 
about 10 million left. But what we have found in the past is 
some academies will get a bunch of money, others will get very 
little, and we could get minimum operating for each academy, 
State Maritime Academies, of 500,000 just so they can have some 
level funding, at least a baseline to go from year to year. 
That is what we would like to see happen, and again with all 
our deployment overseas, maritime is a huge concern and we need 
these young men and women that we can activate to make sure our 
U.S. Merchant Marine fleet is moving our goods to people 
throughout the world.
    Last but not least, the National Sea Grant program again 
was authorized at 67.8 million. I would ask that the committee 
follow the recommendation of the Science and Resources 
Committee and fund the NOAA program, the National Sea Grant 
program, at that amount.
    With that, Mr. Chairman, thank you for your time and 
patience and for your past help in these programs, as I pointed 
out in my testimony.
    [The statement of Mr. Stupak follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wolf. Thank you. Mr. Serrano.
    Mr. Serrano. Just a very brief comment, and I was waiting 
to see some additional influential Members of the majority 
party in the room. The White House, like all administrations, 
is on this crusade to cut out earmarks. I make no excuses for 
earmarks. I think they are an extension of what we do as 
Members of Congress. I like them for my district. I like them 
for my district, I like them nationally. And while it is true 
appropriators usually ignore what the White House says about 
earmarks, we could use your help to accept it and stop talking 
about it as we move on to do what is right.
    And thank you for your testimony.
    Mr. Stupak. Thank you.
    Mr. Wolf. Mr. Allen, Mr. Greenwood and Mr. Weldon. Is this 
part of the Oceans Caucus?
    Mr. Weldon. Yes. Three-fourths of the Oceans Caucus.
    Mr. Wolf. Go ahead, whoever. I am going to leave it up to 
you.
                              ----------                              

                                         Wednesday, April 10, 2002.

                                WITNESS

HON. JAMES GREENWOOD, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Greenwood. Mr. Chairman, thank you for the opportunity 
to testify before your committee today, but before I begin I 
would like to take a moment to recognize Jean Michel Cousteau, 
who is President of the Ocean Future Society. Jean Michel is a 
famed explorer, environmentalist, educator, and film producer, 
who for more than 4 decades has advocated for the world's 
oceans. He serves on the National Marine Sanctuary Foundation 
Board of Trustees as well as on the Board of Seakeepers 
International, Heal the Ocean, Green Cross International, and 
as an adviser to the Communications Office, Clean Beaches 
Council and Windows on Our Waters. We thank him for the work he 
has done and his presence here today. I realize this is a 
Members day. He was willing to testify but----
    Mr. Wolf. If he would like to submit a statement with 
yours----
    Mr. Greenwood. Right. He is happy just to sit there and be 
famous.
    As you know, I am here with my colleagues here as co-chairs 
of the House Oceans Caucus, and I would like to take this 
opportunity to highlight for you two programs, the Coral Reef 
Activities and Ocean Exploration Programs within the National 
Oceanic and Atmospheric Administration's budget, which I hope 
will be funded at the level recommended by President.
    Coral reefs are some of the most valuable and spectacular 
places on Earth. Covering at least 1 percent of the planet's 
surface, coral reefs and their associated mangrove, seagrass 
and other habitats are the most biologically diverse marine 
ecosystems. Coral reefs are valuable assets providing food, 
jobs, protection from storms and billions of dollars in revenue 
each year to local communities and the national economies.
    However, in the United States, as elsewhere around the 
world, many coral reefs have been destroyed or degraded. Chief 
culprits include over-exploitation of the living components of 
coral communities, reef communities and nutrient pollution. The 
coral reef crisis threatens the survival of these valuable 
ancient marine ecosystems and the communities and economies 
that depend upon it.
    The President has requested $28.2 million for coral reef 
activities, and that will allow for NOAA to continue supporting 
coral reef activities across our Nation. Specifically, funding 
will enable NOAA to continue implementing the National Action 
Plan for Coral Reef Conservation developed by the Coral Reef 
Task Force. As you know, the Coral Reef Task Force developed 
the first comprehensive road map for U.S. Action to help 
conserve coral reefs. This road map identifies 13 major actions 
that address two fundamental needs to reverse the coral reef 
crisis: One, increase understanding of our coral reef 
ecosystems and the natural and human processes that determine 
their health and viability; and, two, reduce the adverse 
impacts of human uses of coral reef resources and habitats.
    If our children's children are to inherit the ocean's 
bounty, then we must come to understand and manage them far 
better than we do today. Like you, I am dedicated to exercising 
fiscal restraint; however, I remain convinced that any reduced 
commitment to ocean research and management will mean serious 
economic and ecological consequences.
    I am also requesting your support in providing an increase 
in funding for the Ocean Exploration Program. Covering more 
than 70 percent of the surface of the Earth, the oceans' beauty 
and power have long been a source of awe for many cultures. 
Although few explorers discover the riches they initially 
sought, they found not only new lands but also unexpected, 
bizarre and dazzling deep sea creatures inhabiting an alien 
world. As exciting and promising as the past oceanic 
discoveries have been, they pale in comparison to what future 
explorations may uncover.
    The seas possess enormous economic importance. Some 
resources such as fisheries and minerals are well recognized. 
Other resources offer promise for the future. For example, 
marine mineral resources are extensive yet poorly understood. 
Furthermore, the oceans offer rich untapped potential for 
medications. Marine plants and animals possess inestimable 
biotechnological potential in the treatment of human illness.
    The President's request of $14.2 million for the Ocean 
Exploration Program will allow NOAA to embark on a national 
ocean exploration endeavor, build on our initial efforts in 
ocean research, partner with existing public, private and 
academic ocean exploration programs and promote undersea ocean 
exploration and research.
    This proposal calls for an aggressive plan of action to 
build our national understanding of ocean systems and processes 
and to develop partnerships for sharing information through 
education, outreach and communication. This exploration effort 
will focus in five areas: New Ocean Research, Exploring Ocean 
Acoustics, America's Maritime Heritage, Exploring Ocean 
Frontiers, and the Census of Marine Life.
    Once again I thank you, Mr. Chairman, for the opportunity 
to testify before you today on the importance of funding 
various ocean programs. I hope you will consider my testimony 
along with that of the other co-chairs of the House Oceans 
Caucus when establishing funding levels for NOAA's ocean 
programs.
    [The statement of Mr. Greenwood follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wolf. Thank you. I appreciate your testimony.
    Mr. Allen.
                              ----------                              

                                         Wednesday, April 10, 2002.

                                WITNESS

 HON. THOMAS ALLEN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MAINE
    Mr. Allen. Thank you, Mr. Chairman, both you and Mr. 
Serrano. I have submitted a letter outlining the priorities for 
Maine.
    Mr. Wolf. That will be in the record. I don't believe we 
have that in the record.
    Mr. Allen. If you don't, we will be sure you get it.
    Mr. Allen. With my co-chairs I want to talk primarily about 
funding today for oceans research. Maine, the district I 
represent is a district that relies heavily on marine resources 
but they are important not just to coastal areas, not just to 
the island in which Mr. Serrano was born, but really for the 
entire country, and I think for that reason it is really very 
important that the necessary funding is provided to create the 
infrastructure and form the research that will increase and 
improve our ability to better understand, utilize and protect 
our marine environment.
    In order for NOAA to be able to respond to these and other 
challenges, I want to mention a few different NOAA programs. 
For my part, I want to explain the benefits that will be 
realized through funding dedicated to ocean observing programs 
and the National Sea Grant College Program.
    NOAA has been charged with managing our marine environment, 
and yet the ocean observation data that is necessary to make 
management decisions is often not readily available. We have a 
model up in Maine called GOMOOS, the Gulf of Maine Observation 
Observing System, which is now performing a series of data 
collection efforts, and we think in many ways that is a model 
for ocean observing systems around the country.
    The ocean observations that can be made will allow 
scientists to generate the data that will help us understand 
the short and long-term trends that are occurring in the 
world's oceans and atmosphere, and that data is useful not just 
to scientists but also to fishermen and all those who are 
earning a living from the oceans. But this data will lead to 
improved weather and climate forecasts, improved natural 
resources management and a better understanding of the sources 
and impacts of marine pollution.
    So we are asking that you support NOAA's budget request for 
ocean observing systems that will allow NOAA to work toward the 
establishment of a national ocean observing system that can 
accurately document climate scale changes and ocean heat, 
carbon, and sea level changes, directly supporting the 
President's U.S. Climate Change Research Initiative.
    We also support NOAA's request to develop a Coral Reef 
Watch Program. Mr. Greenwood has been talking about that. That 
initiative is consistent with the objectives for an integrated 
ocean observing system and would strengthen NOAA's position as 
the world leader in operational environmental monitoring and 
early warnings.
    I also wanted to say something about the Sea Grant Program. 
The National Sea Grant College Program, transferring that 
program to NSF as is proposed in the President's budget could 
result in the abolition of the Sea Grant Office, termination of 
Federal support for the existing Sea Grant college program 
network and deterioration of the nature and purpose of the Sea 
Grant Program. We now have in this country 30 university-based 
Sea Grant programs that engage scientists, engineers, 
educators, communicators and students from over 300 
participating academic institutions, and for almost 35 years 
now the Sea Grant has proven its value to taxpayers as a 
program that supports rigorous high quality competitive 
research that is directly responsive to the needs and the 
concerns of our citizens. But for Sea Grant to be successful, 
it does require a location in the Federal Government that 
encourages partnerships among academia, government, industry 
and the public that allows for combined use of research, 
education, and outreach, and that focuses on education, the 
economy and coastal environment.
    Sea Grant focuses on applied research and is able to tailor 
its research programs to respond to local, State and regional 
needs and priorities. If we move Sea Grant to NSF, I think that 
it will create the risk that these integrated, vital and 
effective services will be diminished or lost altogether. It 
could also result in the loss of matching funds that have been 
so effective in building regional, State and local 
partnerships.
    Finally, a Sea Grant Program based in NSF but distributed 
among several divisions would seriously undermine the value of 
the Sea Grant national network. So we are urging the 
subcommittee to support the funding for the National SeaGrant 
College Program within NOAA at its fiscal year 2003 authorized level.
    In closing, I want to thank you for being here and holding 
this hearing, and I hope you will consider this testimony as 
you evaluate this part of the budget for which you have 
responsibility.
    [The statement of Mr. Allen follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wolf. Thank you very much. I agree with you on the 
shift. To put it in the National Science Foundation and take it 
away from NOAA just doesn't make any sense. I think they did it 
for budgetary reasons. My sense is that there are not many 
people for it. I can't speak for the rest of the committee 
obviously, but I do agree.
    Mr. Weldon.
                              ----------                              

                                         Wednesday, April 10, 2002.

                                WITNESS

HON. CURT WELDON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA
    Mr. Weldon. Thank you, Mr. Wolf and Mr. Serrano, for the 
honor to come forward. I am going to submit my statement for 
the record and talk to you about some concerns I have.
    Mr. Wolf. Your full statement will appear in the record.
    Mr. Weldon. It was Dr. Sylvia Earle, who is one of the most 
well known marine biologists and oceanographers in the country, 
said that when she was chief scientist for NOAA a few years 
ago, we were spending more money on funding the waste disposal 
system for the Space Station than we were for undersea research 
in our budget in America. I am a strong supporter of our space 
program, and as a senior member of the Science Committee I 
support that, but our budget for ocean research and ocean 
issues is a disaster.
    Last year you did us right. You increased the funding for 
NOAA and you are to be commended for a good job. You responded 
to the call we made. We have been trying over the past 5 to 10 
years, since way back when I was a ranking member on the 
Oceanography Subcommittee of the old Merchant Marine Committee, 
to raise the visibility of an international oceans agenda, and 
in that regard we made progress. We helped a former Energy 
Secretary and former CNO of the Navy organize the Consortium 
for Oceanographic Research and Education. Admiral Jim Watkins 
headed that group up, just recently retired. That brings 
together for the first time all the oceanographic research 
institutions in America.
    In fact, they are in town today. I spoke to them this 
morning as they lobbied the Hill for the funding that is 
necessary to complete their programs. Jim Watkins is now the 
new chairman of the presidentially appointed Oceans Commission, 
which was mandated by the Congress to come up with a 
comprehensive oceans agenda, and we in the Congress have 
organized the Oceans Caucus. We now have over 60 members in 
both parties.
    Mr. Wolf. Is that new?
    Mr. Weldon. It is new, the last 2 years. And our goal is to 
raise the visibility of an oceans agenda.
    Mr. Chairman, we have made progress and I used my position 
on the Armed Services Committee to assist us. The Navy in fact 
has been the largest funder of ocean activity in the Federal 
Government. That is unbelievable that it has been the U.S. 
Navy, partly because of our defensive needs and because of our 
efforts in the Office of Naval Research, and in that capacity 
we have used those Navy dollars to do unbelievable things.
    Our first concrete interactions with a new Russia was 
working with the Russian Navy to help them understand the 
problems caused by the illegal dumping of nuclear 
contamination, nuclear reactors in the oceans. Through our 
efforts we stopped that. The Russians back in 1993 and 1994 not 
only admitted they have been dumping their reactorsoverboard in 
the waters off their cost but they stopped the practice.
    We have opened the door for further military cooperation. 
We are now helping with Navy dollars to allow them to do more 
in terms of controlling, storing and eventually disposing of 
their spent nuclear fuel. Right now we are involved in a $25 
million program developed by the Advisory Council on Protecting 
the Seas to help the Russians develop their own environmental 
plan of action to clean up the ocean and maritime environment. 
Four million of that hopefully will come from the U.S. 
Taxpayers. I am looking to the Department of Energy through our 
carbon reduction program to fund that in this fiscal year.
    Mr. Chairman, we have taken great strides to fund the 
oceans and try to increase it because it builds bridges for us 
to other countries. So it is not just about the issues that we 
are talking about today, like the degradation of coral reefs or 
the land-based sources of pollution or the overfishing that is 
occurring. It is also about the oceans becoming a bridge to 
help us establish contacts with other nations who are our 
former adversaries or our would be adversaries. We are doing a 
lot of that type of work now with China, and we are attempting 
to reach out in a delegation I will lead next month to North 
Korea, offering to work with them to open some doors on some 
marine problems they have, that we begin a dialogue that 
hopefully can help bring some stable discussions between the 
North Korean leaders and us.
    So the oceans agenda is an extremely important one. As I 
chaired the Research and Development Subcommittee for Defense 
for 6 years, I focused on the oceans agenda items from the 
standpoint of the military budget and we put dollars in, and 
that is continuing today, but what we saw was that there were 
14 separate agencies each doing oceans research--EPA, NOAA, 
State Department, DOD. None of it was coordinated. So I 
produced legislation back in 1996, which Patrick Kennedy 
cosponsored, creating the National Oceans Partnership Program. 
That passed and became law in 1997 and it was the first time we 
began to network all 14 organizations together, saying you have 
got to create a comprehensive coordination of ocean research at 
the Federal level.
    Since 1997, that program has seen $80 million of 
coordinated Federal research, much of it directed by NOAA even 
though it is not NOAA dollars, allowing us to work with $80 
million of matching funds to do basic research on the oceans.
    So we are making good progress, but the most important 
thing here is that NOAA must continue its credibility. NOAA 
must be the leader. NOAA is our national oceanographic agency, 
not the U.S. Navy. NOAA must play that key role and we will 
continue on the Armed Services Committee, on the committees 
overseeing the other Federal agencies to make sure they are 
collaborating, but NOAA must be in that leadership role and 
that is why this subcommittee is so critically important. You 
made a solid start last year. Your funding levels were very 
much on the mark. We just ask you as you consider this year's 
NOAA budget to look at the impact you can have far beyond NOAA 
and far beyond this subcommittee because the money you put in 
will leverage across the board and those other 13 Federal 
agencies in other appropriation committees to do more ocean 
research that can never be done by just one agency with a tough 
balancing act you have to do with this particular appropriation 
bill.
    The second issue I want to help you focus on today is the 
issue of land-based sources of pollution. It is a difficult 
program. It is not easily attacked. NOAA is beginning to 
address that along with EPA, and your funding support in that 
area can also continue to allow us to address that program both 
domestically and around the world.
    I think this year and next year can truly become the year 
of the oceans. We have the Oceans Caucus, we have the Oceans 
Commission chaired by Admiral Watkins. We have the down payment 
you all made in terms of increasing NOAA's support last year. 
What we are asking for you to do is to help us continue that 
effort. We in our other capacities from the Armed Services 
standpoint, now that I chair the Procurement Committee, I will 
make sure that we are doing our part to max the dollars you put 
in and provide additional support to allow NOAA to meet the 
kind of challenges that we have for the oceans in the 21st 
century so that we never have Sylvia Earle have to talk about 
more money for waste disposal systems for the Space Station 
than what we spend collectively on the entire undersea research 
of our ocean ecosystem.
    [The statement of Mr. Weldon follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wolf. Well, thank you, Curt. I share those concerns. I 
think the Administration has a good person as the new head of 
NOAA, and we all will attempt to do what we can.
    When was the last International Conference on Oceans?
    Mr. Weldon. We just had a session that we sponsored with 
the Arab----
    Mr. Wolf. International, bringing all the different nations 
together.
    Mr. Weldon. We had one here in 1998 which Gore and Gingrich 
addressed. There are two different international groups. There 
is the Advisory Council on Protecting Seas, which represents 35 
nations, and I am involved with that, and then there is the 
Global Legislators for Balanced Environments and we meet 
regularly in different locations. So there are periodic 
meetings held each year. They are not always here in the U.S., 
and Jim is involved with Global also and we try to coordinate 
our agenda with the agenda of other ocean bordering nations.
    Mr. Greenwood. Mr. Chairman, the legislation that I 
sponsored that we all work for is the Exploration of the Seas 
Act, and that was passed last year. What that does is it has 
the National Academy of Sciences doing a study on how the 
nations of the world could collaborate financially as well as 
scientifically on exploration and understanding of the 
oceansthe way we have on the International Space Station.
    So that study is being conducted now and in fact I think it 
is on May the 13th I will be speaking at a convention of 
worldwide leaders on oceans. Mr. Cousteau will be there as 
well. And they are going to put together this study so we can 
really begin to leverage the U.S. Dollars by joining some of 
them with the French dollars and the Japanese dollars.
    Mr. Wolf. What other nations, Jim, are doing a good job?
    Mr. Weldon. Japan, number one.
    Mr. Greenwood. Japan. France is certainly----
    Mr. Wolf. Is that because of the fisheries?
    Mr. Weldon. Their dollars spent, it is up in the billions.
    Mr. Wolf. Is that because it is an island nation?
    Mr. Weldon. There is also an economic benefit to exploring 
the oceans that we haven't pursued in America.
    Mr. Wolf. Japan and what other countries?
    Mr. Greenwood. Certainly France has been the leader. I 
think they are the biggest names.
    Mr. Allen. I might add there are countries in Africa which 
you would not consider leaders in this effort are getting on 
board. ACOGS, which both Curt and I are involved, is doing a 
project and there are a number of African nations which are 
just beginning to develop projects involving their coastal and 
marine areas having to do with pollution or something else.
    Mr. Wolf. What country is that?
    Mr. Allen. I can't remember which----
    Mr. Greenwood. The sub-Saharan African nations. One of 
them, for instance, is Kenya. I did some scuba diving off the 
coast of Kenya----
    Mr. Wolf. In Mombasa?
    Mr. Greenwood. Yes. And the reefs there were badly damaged 
by warm weather current that came through and bleached 
something like 90 percent of the reefs in that area. So they 
are acutely aware that they have some difficulties there and 
they are also acutely aware that Africa has great tourist 
potential that has not yet fully evolved and making sure that 
their coastal areas are clean and the water is clean.
    Mr. Weldon. Mr. Chairman, one other point I would like to 
make is oceans agenda is also a security agenda. One of the 
things that Admiral Watkins identified as former CNO of the 
Navy is that by establishing an international ocean sensing 
system we can predict and understand climatic change both 
through phenomena like El Nino and La Nina so that we can 
understand when a famine might occur in, say, Africa or when a 
series of major downpours might occur that would cause serious 
flooding because that result and action caused by the 
environment oftentimes lead to conflict over available 
resources, whether it be water or food. So if you could have a 
mechanism in place based on the changes which are largely 
directly related to the oceans, you can in effect predict and 
understand when those changes will occur, which then if you 
take action proactively you can prevent conflicts from 
occurring, you can prevent famines, floods. You can prevent the 
kinds of things that cause nation states to go against each 
other. So.
    In effect what you are doing by establishing both research 
and this kind of proactive effort is you are helping to 
stabilize the world so it becomes a security issue, and that is 
the angle I use on the military side to put more DOD dollars 
into this. But again NOAA has got to provide that leadership. 
That is their primary function and I agree with you the new 
Director is an outstanding individual. His own past background, 
he recently chaired the consortium that Admiral Watkins held.
    Mr. Wolf. Mr. Serrano.
    Mr. Serrano. Just a brief comment. One of the more dramatic 
issues in my community lately is the issue of the bombing of 
the Island of Vieques. Right now that is a very touchy subject 
for all of us. It is a national defense, it is a colonial 
status versus a noncolonial status. But if President Bush can 
keep his plan in place, which is the agreement that President 
Clinton made with Puerto Rico, maybe we will stop bombing in 
2003, and when that happens that issue then becomes more 
something for you folks and for me to join you because we are 
talking about 63 years of bombing and what it has done to the 
coral reef, the live munition that is still there, the fact 
that some of the beaches have been destroyed, and we are big 
supporters and certainly I am a big supporter of NOAA and the 
work they do, including a lot of wonderful work they do in the 
inner city where there are no oceans to be seen at times.
    So I look forward to supporting you in every way I can and 
hope that when May 2003 comes around that we can move on to the 
new life that awaits Vieques and what it should have been 
before the bombing started.
    Mr. Weldon. Both Tom and I are on the Armed Services 
Committee. So we will be involved with that issue for a long 
time.
    Mr. Wolf. Thank you very much.
    Mr. Roemer, Mr. Gilchrest and Mr. Terry. You all can sit 
together or however you want to work it.
    Mr. Roemer. Are you coming up with me?
    Mr. Gilchrest. Behind you all the way.
    Mr. Wolf. Welcome.
                              ----------                              

                                         Wednesday, April 10, 2002.

                                WITNESS

HON. TIM ROEMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF INDIANA
    Mr. Roemer. Mr. Chairman, I will be brief so I ask 
unanimous consent to----
    Mr. Wolf. Without objection, all of your statements will 
appear in the record.
    Mr. Roemer. First of all, I want to just say that this will 
be my last testimony before this committee and I want to thank 
this committee for their fairness and wisdom and their 
equitable distribution of resources to many good, worthy 
projects throughout the United States, and I have always 
enjoyed my friendship with the both of you. Thank you for 
serving Congress the way you do.
    I am here, Mr. Chairman and Mr. Serrano, to thank the 
subcommittee but also request a couple of new funding projects. 
My first request is for $500,000 for the City of South Bend to 
purchase a local automatic fingerprint identification system. 
We have a rising crime rate in South Bend. This will assist our 
police department in apprehending criminals. You provided money 
a few years ago to help us with new computer systems in our 
cars. This backs us up, and this system will help us increase 
the rate of criminal apprehension and prosecution and it saves 
police officers a lot of time. So that will be my first 
request.
    Secondly, I would request $1.3 million for the University 
of Notre Dame to develop and support a comprehensive school and 
community-based violence prevention program. We have built the 
center in a part of South Bend which is continuing to see high 
crime rates, high dropout rates, low economic development. This 
center, which was funded in part by the University of Notre 
Dame in South Bend, is now going forward to try to combine and 
collaborate with the South Bend Police Department, the 
prosecutor's office, the trauma unit at Memorial Hospital and 
area communities schools.
    One of the things they are doing is trying to set up a 
computer system which will integrate the learning of the local 
schools with the kids that come into this learning center after 
school and do things to try to improve their academic progress 
and their scores on tests. It is not just a place where you go 
for enjoyment and basketball. They are having a small business 
incubator there, a program for education, for after-school 
activities that directly links up with kids' performance. I 
think that is the kind of after school unit that we need, and I 
am requesting funding for that program.
    Thirdly, $2 million for the University of Notre Dame to 
conduct comprehensive environmental risk assessment for new 
industrial solvents that pose a threat to the aquatic 
ecosystems in the Great Lakes.
    Fourthly, $15 million for the Friends of the St. Joe 
Juvenile Justice Center to construct a new facility to house an 
accelerated learning academy. Again this is an education 
component, Mr. Chairman. The academy's goal is to provide a 
rigorous educational environment while also offering assistance 
to the student's family for guidance and to establish a healthy 
home environment.
    We find in the South Bend schools, oftentimes for good 
reason, kids are kicked out of school and incarcerated in 
juvenile justice programs. They then fall a year or a year and 
a half behind in their school and they drop out of school 
subsequently most times. This academy would be a curriculum and 
a school within the juvenile justice program that would require 
these students to attend school while they are incarcerated, 
therefore they don't drop behind, they don't drop out of school 
when they return to school a year, a year and a half later as 
tenth graders or eleventh graders and they stay up on their 
school work, and we find this is a great way to keep kids from 
going to prison later on.
    So those four requests. Mr. Chairman, Mr. Ranking Member, 
again I really thank you for your support.
    [The statement of Mr. Roemer follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wolf. Thank you, Tim. I have no questions. Mr. Serrano.
    Mr. Roemer. Thank you very much.
    Mr. Wolf. Your full statement will appear in the record.
    Mr. Gilchrest.
                              ----------                              

                                         Wednesday, April 10, 2002.

                                WITNESS

HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Gilchrest. Thank you, Mr. Chairman. Just a brief note 
in the previous panel, in discussion about the international 
organizations, Africa works with the National Fishery Service 
via the State Department and our embassies in a number of 
countries over there with the AID program to help develop 
fisheries management plans and marine protected plans, and 
there are a number of countries along the coast. Probably the 
best, surprisingly enough, plan is from South Africa. So they 
are fully engaged in that issue.
    I would like to submit my statement for the record.
    Mr. Wolf. Without objection, your full statement will 
appear.
    Mr. Gilchrest. And I would like to ask the chairman and Mr. 
Serrano to think of a clock, an 18th century windup clock that 
was put together by the clock maker that was very complex that 
allowed us to view the passing of time without much concern 
about the mechanics of that machine. Until very recently, the 
last couple of hundred years or so, the population has 
increased to the point where humans and their activity has had 
an enormous impact on the mechanics of the operation of that 
clock, a degrading impact, and we see human activity in the 
fisheries, in the quality of water, in our estuaries, in 
innumerable ways around the planet where we have degraded the 
environment in many areas of the United States. Whole sections 
of Africa have been decimated, not to mention a country like 
Haiti, and that dramatic effect has an effect on the water that 
passes through those countries that eventually gets into the 
ocean and disrupts the natural processes of the marine 
ecosystem, which then has a dramatic effect on humans because 
we depend on that for our life support system.
    So we have reached the point, I think, in our stage of 
development where we understand the mechanics of that clock and 
we have enough people to get in there and not only not let it 
wind down but get in and fix some of the parts that have been 
made fragile or broken, even to the point basically where the 
hands in the front are about ready to fall off and we can't now 
find the key to stick into the back of that clock to wind it 
up. And the people who know how to fix it are sort of 
fragmented. So we as a government pull these people together, 
combine the resources for them to do their job, and National 
Marine Fisheries Service is one of those clock makers. National 
Ocean Service is involved in that.
    I would like to refer to the marine protected areas which 
we are asking for $5 million as a glass in front of the clock 
that protects the hands, and then land conservation goes a long 
way to reduce the kind of degradation and pollution we see in 
our coastal areas, which is basically fundamentally responsible 
for the spawning areas for the life of the sea.
    So it is not a great deal of money and I know that 
everybody's budget is being crimped, but as the previous panel 
testified, the small amount of dollars that goes into these 
programs compared to the dollars that go to an array of other 
programs is pretty dramatic, and it is dramatically small. So I 
would ask that the request that we have for National Marine 
Fisheries Service to deal with a whole range of things, 
National Ocean Service and those added programs in marine 
protected areas are basically where the wildlife refuge is on 
the land that provides to protect the area, for the habitat to 
be restored, and one example of that is the Gulf of Maine, 
where for a number of reasons they put fishing off limits and 
they made it a protected area. The scallops they used to get 
out of there a few years ago had become the size of a dime. I 
don't know if you go to restaurants and you order scallops and 
you take a look at the size, most of them in recent years have 
been pretty small and in 3 years time the size of the scallops 
grew 14 times and that whole ecosystem began to be restored and 
the fisheries became much more healthy.
    So we are asking that each one of the programs requested 
today be fully funded. I think it will go a long way toward 
accomplishing our understanding of how that clock works, 
putting our ecosystem back together in a compound that we don't 
often think about, which is basically on the planet Earth, as 
far as we know in the entire universe in the form that it is 
unique and has water, so we understand that life comes from and 
is sustained by the oceans, we will go a long way toward doing 
things the previous panel said, protecting that for future 
generations.
    [The statement of Mr. Gilchrest follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wolf. Thank you.
    Mr. Gilchrest. Thank you, and I was going to bring some 
oysters but I didn't get home last night, so if I come in 
tomorrow----
    Mr. Serrano. I commented to staff people that I checked 
Ethics. That is allowed, you know.
    Mr. Gilchrest. Okay.
    Mr. Wolf. How are the oysters now? I was down asking some 
people on the oyster take compared to what it was. What is it 
now on the Eastern Shore?
    Mr. Gilchrest. In 1890, between the 1880s and the early 
part of the previous century, you could get about 15 million 
bushels of oysters out of the Chesapeake Bay. Last year we got 
120,000.
    Mr. Wolf. Say that again.
    Mr. Gilchrest. A hundred years ago you got 15 million 
bushels and last year we got 120,000 bushels. We have a program 
in the Chesapeake Bay which is part of our request, pursuing--
--
    Mr. Wolf. I know. Excuse me. I didn't want to interrupt. Go 
ahead.
    Mr. Gilchrest. What all of these various funding sources 
will do will help pool together information sources so that we 
can approach our marine resources from an ecosystem approach; 
in other words, understand how all the mechanismsin the clock 
work together to make the clock run. There is a myriad of things from 
phytoplankton, which is a microscopic piece of ledge vegetation, right 
on up to the whales, and there is a food web that is put together and 
the only way to describe that is to understand the physics of the 
system of the ocean is to understand the mechanics of the creation that 
went into making the ocean, and the Chesapeake Bay program has a pilot 
project to do an ecosystem approach to the Chesapeake Bay that can then 
be replicated a number of other places.
    Mr. Wolf. In Virginia they are using some programs where 
they have oysters where they actually have them in containers 
that are not actually--a different approach, almost like they 
do commercial catfish?
    Mr. Gilchrest. Maryland and Virginia have come together to 
collaborate on this oyster restoration project where a few 
people will have oyster spat--that is the tiny microscopic baby 
oyster. That is grown to a certain size and that is taken all 
over Virginia and Maryland to put in probably what you saw, in 
little baskets, and then those little baskets are taken to 
build up oyster reefs and the oyster reef is what filters out 
and makes the water quality.
    Mr. Hoyer. Mr. Chairman, I know I am not a witness here, 
but on the oysters, an interesting thing, at the turn of the 
century, as Wayne said, there were sufficient oysters to 
process the water on the Chesapeake Bay in 72 hours. That means 
there were enough oysters. Oysters are sort of a little sewage 
treatment plant. They clean up the water. In 3 days, 72 hours, 
all the water in the Bay would be processed by the 15 million--
by actually more oysters in the Bay. And of course one of the 
problems the Bay has now is that one of the challenges to the 
Bay is you don't have God's natural water treatment plants 
there. But in 3 days they would go through all the water.
    Mr. Wolf. Three of the rivers in my district, the Potomac, 
the Shenandoah and the Rappahannock, the Rappahannock actually 
begins in my congressional district and of course it spreads 
out to what looks like a large bay. How successful are they now 
in bringing the Bay back and protecting the Bay? Could they 
ever get it to that point again? I noticed all the development 
along the Bay.
    Mr. Gilchrest. The Bay has died. The Bay is not improving. 
In some places the Bay improves with a single species like 
rockfish because they didn't let anybody catch them for a long 
time. Then we catch too many menhaden and then the rockfish 
don't eat that as their main source, they eat the crab. Then 
the sewage treatment plants would have degradation from 
development which oversilts and then the grass doesn't grow and 
the crabs don't have a place to hide and then the Bay is not 
filtered out by the oysters and the menhaden are down. So it is 
a whole complex----
    Mr. Wolf. How far back could we get?
    Mr. Gilchrest. We will never go back to the way the Bay 
used to be, but we can reach a point where we can create a 
system where the Bay will be sustained, the water quality will 
be good and it will be restored to a point where generations to 
come will be able to use the Bay in a productive manner. But it 
has to be this ecosystem approach, which means you have to put 
sanctuaries, places where people can't fish, and there also has 
to be places where people can't use motorboats.
    Motorboats in shallow water tear up the grass. The grass is 
the start of the food chain. When the grass isn't there, 
microorganisms aren't there, the small fish aren't there, and 
it goes right up to the top.
    So the information to restore the Bay is there, but much of 
that information has to get to the planning and zoning 
committee, the county commissioners. We need places where there 
are no development on the land. We need better management 
practices for agriculture. We need places in the Bay proper 
where you can't take a jet ski or even a small motorboat. That 
is about a third of the Bay, the Bay itself and the tidal 
basins that abut the Bay. A third of it has to be off limits to 
that kind of human activity because of its disruption.
    Mr. Wolf. Anything we can do to help. Mr. Serrano, do you 
have any questions? You can tell Mr. Gilchrest is a teacher.
    Mr. Serrano. Yes, and I really appreciate that you have 
given us so much information and I am always amazed at just how 
much we have turned our back on the ocean and the bays. It 
makes no sense. In the Bronx we spent 25 years trying to bring 
back a river and, to the credit of people who live there, they 
say, the river? The Bronx River. Finally, fish will come back 
to the Bronx River and people are using it and kids are 
building things around it, and this committee has been very 
helpful and other folks have been very helpful but it took 25 
years and this whole community set out to save this river, and 
it is coming back.
    Mr. Gilchrest. And it is also a point of a person or 
community's values and respect for all of creation. Thank you.
    Mr. Wolf. Thank you. Mr. Terry.
                                         Wednesday, April 10, 2002.

                                WITNESS

HON. LEE TERRY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEBRASKA
    Mr. Terry. Thank you very much, Mr. Chairman, and thank 
you, Mr. Serrano. I will submit my full statement for the 
record and it is full of information, pathos and emotion, and I 
will just summarize in my oral testimony.
    I come here to your committee today on behalf of probably 
most barrio kids in the Cities of Los Angeles; Portsmouth, 
Rhode Island; Newark, New Jersey; Phoenix, asking for $1.5 
million to Girls and Boys Town USA to establish their satellite 
homes in those cities.
    And let me give you a little bit of history. First of all, 
I am a guy from Omaha, Nebraska that is asking for money for 
Cities of Newark and Phoenix and Los Angeles but I am a real 
fan of Girls and Boys Town. Of course they are headquartered in 
my district of Omaha. It started in 1917 by an Irish immigrant 
by the name of Father Flanagan, who was made famous in a 
movie----
    Mr. Hoyer. That was founded by Bing Crosby. You can't fool 
me.
    Mr. Terry. Whatever works. He did an almost adequate job of 
representing Father Flanagan. The home started in 1917 for 
orphaned boys who through history has progressed to helping the 
kids that have the most severe problems in our society, those 
that have been abandoned, those that have wound up in the 
juvenile court system. For the most part these are kids that 
are ordered by the court system into the Boys Town system.
    And why do the courts appoint so many kids into this 
system? Well, it works. It is built on a family model where 
they have physical homes with house parents that are the 
sponsors, that both have degrees in counseling and they have a 
rather rigid structure that has proven to be successful, the 
structure of caring people in the home that teach household 
skills, social skills, community skills and education. These 
are young children that have come from the streets involved in 
drugs, in violence, in crime and come out years later hopefully 
with a degree, wearing pants, suit coats and ties.
    It has been a model that has been proven successful for 
kids that the traditional system has failed because it handles 
them in a little different approach. It is the niche approach 
that has been so successful for the toughest children in our 
society, those who are the toughest to serve in our societies. 
Because of their success, and now they are under the new 
tutelage and leadership of Father Val Peters, who wants to take 
it into the cities that have the most kids that need to be 
served in this capacity. So we are taking the Boys Town model 
across the Nation.
    Last year this committee was generous enough for the 
Louisiana project and Kansas project and I think in Newark as 
well. You gave them $500,000. I think they are proving 
themselves to be successful, and they are asking for $1.5 
million for this year.
    [The statement of Mr. Terry follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wolf. Thank you. I appreciate your testimony. Your full 
testimony will appear in the record.
    Mr. Terry. I appreciate that.
    Mr. Wolf. Mr. Sherman--Mr. Hoyer.
                              ----------                              

                                         Wednesday, April 10, 2002.

                                WITNESS

HON. STENY HOYER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MARYLAND
    Mr. Hoyer. Mr. Chairman, can I submit--Mr. Ridge is meeting 
with the Treasury Committee at 4:00. I will submit my 
statement. Obviously one of the things I was going to say is 
you have been on the Helsinki Commission and know about as much 
about it as I do.
    [The statement of Mr. Hoyer follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wolf. Sure. You are in good shape.
    Mr. Hoyer. Thank you.
    Mr. Wolf. Mr. Sherman.
                              ----------                              

                                         Wednesday, April 10, 2002.

                                WITNESS

HON. BRAD SHERMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Sherman. Thank you, Mr. Chairman, Mr. Serrano. I hope 
my full statement will be made part of the record.
    Mr. Wolf. It will.
    Mr. Sherman. I bring you three projects, the first of which 
is not only the most important but the least expensive. I am 
seeking $100,000 from the Technology Opportunities Program of 
the Department of Commerce's National Telecommunications 
Information Administration, NTIA, or such other funding sources 
the subcommittee may choose for a project, Los Angeles Freenet, 
which will add to what L.A. Freenet is already doing to provide 
free Internet service to disadvantaged students and also to 
cooperate with the program of New Directions for Youth, which 
is another nonprofit organization. New Directions for Youth is 
already providing computer training to disadvantaged families, 
and then when these families graduate the program and know far 
more about computers than I do and how to operate them, they 
then will be eligible for free Internet connection.
    We have all heard about the digital divide, and this is an 
outstanding model program for dealing with that digital divide. 
I cannot think of a better investment to help people, 
particularly disadvantaged people, to help students, than to 
get them on the Internet from their homes. So we are requesting 
this $100,000 for LA Free Net. If for some reason earmark is 
impossible, I would request that the subcommittee include 
report language directing NTIA to favorably consider and 
strongly look at the LA Free Net grant application.
    The next two projects I have are projects that benefit not 
only my own district but all of the city of Los Angeles. The 
first deals with an alternative to the well-known 911. So many 
people are dialing 911 that it sometimes takes half a minute, a 
minute, or sometimes several minutes to get through when there 
is a genuine emergency.
    One of the things about 911 is, it is catchy. People know 
it, and when people need to reach the police, they call it. 
This would create a second, alternative system, 311, that 
people could call when they need to reach the police or other 
emergency officials, but not on an emergency basis, so that 
they would know that they were not interfering with some life-
or-death situation. We would need $2 million from theCOPS 
technology account for staff and for developing this program.
    The third is a request also from the COPS Technology 
Account, and this is for the data tracking system, a commuter 
information system, for the Community Court Pilot Program. This 
is a pilot program to divert from the regular courts those 
accused of what are called quality-of-life crimes--public 
drinking, vandalism, or misdemeanor graffiti. These are 
important crimes, they have the effect of depressing a 
neighborhood and yet they are not obviously as important as 
those crimes of violence against people.
    So these offenders are being diverted to the Community 
Court Pilot Program, but what is necessary is funding for 
computer tracking so that when these individuals go before this 
community court their rap sheet, pretrial information, et 
cetera, is available to the judge.
    So I hope that you would consider these three programs, and 
especially the first one I identified, the $100,000 for free 
Internet.
    Mr. Wolf. Thank you very much. We will. And we thank you 
for your testimony.
    Mr. Serrano.
    Mr. Serrano. No. Thank you very much.
    [The statement of Mr. Sherman follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, April 10, 2002.

                                WITNESS

HON. JULIA CARSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Wolf. Congresswoman Julia Carson.
    Ms. Carson. Thank you very much, Mr. Chairman.
    Mr. Wolf. Your full statement will appear in the record as 
if read.
    Ms. Carson. Yes, sir, I have the copies for the committee, 
and thank you very much; and Ranking Member Serrano. I really 
appreciate this opportunity to share with you some of the 
efforts in my district, in Indianapolis.
    My first request is for $800,000 for a security call center 
and a video surveillance center. This is for senior citizens, 
basically, where when they make the emergency call to the call 
center, it automatically acts as a police video so they can 
keep their eye on the situation until they are able to respond, 
et cetera. The statement details it so that you will not have 
to be bothered with a long diatribe from me.
    And the other one is to ask for money for COPS Mobile Data 
Terminals for the Indianapolis Police Department, the ones that 
they use. If they get the terminals upgraded, it allows them to 
spend approximately 8 additional hours of time on the beat. 
This would allow the data terminals that they use in their 
automobiles to be able to transmit a lot of the data so that 
they will not have to sit there in the car themselves.
    The upgrade is going to run to approximately $2 million, 
but I was hoping that the subcommittee would be able to provide 
around $600,000 of that. We will be able, hopefully, to amass 
the rest.
    Thirdly, let me talk to you about securing the safety of 
passengers and commerce at our municipal airports, which 
requires more than screening bags and stationing of National 
Guardsmen throughout the facility. We already have a lot of 
that, but we need more to depend on the safety of all these.
    We have a university--Mr. Chairman and Ranking Member 
Serrano, the University of Indianapolis, an expert in providing 
public safety training, the Indianapolis Airport Authority, and 
the British Airport Authority, a private airport manager, are 
establishing a public/private partnership to train officials 
for our major airport in Indianapolis, plus five other regional 
airports that we have in the State of Indiana. The training 
would include security audits and consultation, liaison with 
Federal departments, coordinated training of police, fire and 
emergency medical services, et cetera.
    Finally, Mr. Chairman, I would request $150,000 on behalf 
of the Indianapolis Family Violence Response Center that is 
going to help victims of domestic violence. It is a 
collaborative effort between community service delivery 
providers and public safety agencies. It would serve as a model 
for communities around the country for an aggressiveand 
comprehensive approach in reducing domestic violence. It is all in the 
statement in terms of how it would work.
    Again, Mr. Chairman, I would extend my heartfelt thanks to 
you and your committee to allow Members to come before you and 
to put the beg on the ATM machine.
    Mr. Wolf. Thank you very much. We will take your statement 
and consider your requests.
    Ms. Carson. Thank you, sir.
    [The statement of Ms. Carson follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, April 10, 2002.

                                WITNESS

HON. PETER J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Wolf. Mr. Visclosky.
    Mr. Visclosky. Wish you would have left some for me.
    Ms. Carson. He is from Indiana too, but mine is a priority. 
Mr. Visclosky has been here a long time. He has got his by now.
    Mr. Visclosky. Thank you, Julia.
    Mr. Wolf. Your full statement will appear in the record.
    Mr. Visclosky. Thank you, Mr. Chairman. I would just add my 
voice to Ms. Carson's to thank you for allowing Members to 
testify before you, because I do realize the imposition on your 
time.
    I also come to you to really thank you from the bottom of 
my heart, because you and Mr. Serrano and the members of the 
subcommittee were very generous last year, and in particular in 
the $400,000 that was earmarked for a Purdue Technology Center 
in our district.
    Indiana is having an incredible problem as far as keeping 
our young people in-State after they get a good education. As 
you know, we are losing jobs in my district because of the 
collapse in steel employment, and this really has provided a 
spark and a reason to have hope in the future. It was a 
godsend, and I really want you to know I appreciate it. Again, 
your staffs, on both sides, have been good to work with and we 
will continue to work with you.
    Mr. Wolf. Great. Thank you, Pete. We appreciate it, and 
your full statement will be in the record.
    Mr. Visclosky. Thank you.
    [The statement of Mr. Visclosky follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, April 10, 2002.

                                WITNESS

HON. CHRISTOPHER H. SMITH, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF NEW JERSEY
    Mr. Wolf. Mr. Smith. Your full statement will appear in the 
record.
    Mr. Visclosky. All the money is gone.
    Mr. Smith. Oh, geez. I have heard that before.
    We do have a lengthy statement and a justification for 
every dollar.
    Mr. Wolf. I completely agree with you.
    Seriously, you are welcome to testify. Your full statement 
will appear in the record, but I know the good work that you 
and Steny have done, and Senator Campbell and others on this, 
so----
    Mr. Smith. And yourself, religious freedom being one of the 
key issues at the OSCE. Your law has made a major difference.
    Mr. Wolf. So you have my support, without any trouble, but 
you are welcome.
    Mr. Smith. No, no, I will take it when I can get it. Unless 
you have any questions.
    Just one brief thing. We had an extensive hearing on the 
Roma, who are the most persecuted, sometimes called gypsies, 
which is almost an ethnic slur, even though it is not. I would 
rather just call them Roma. But there are between 8 and 10 
million throughout Europe, and it is become a worsening 
situation rather than an improving situation, with some 
exceptions.
    Bulgaria is trying to make some changes, and we hope that 
the Berlin OSCE Parliamentary Assembly will bring up a----
    Mr. Wolf. And when is that?
    Mr. Smith. Right around July 4th, the 6th through the 10th. 
They will bring up a major resolution on that.
    Mr. Wolf. That was the 6th through the 10th?
    Mr. Smith. Yes. Because many of our European countries, 
especially Western Europe, continue to discriminate very 
severely, egregiously, against this group of people who cut 
across each country.
    They are disenfranchised. They often put them in special 
schools, and they track them as mentally incompetent, when they 
are anything but. It almost gets that kind of outcome because 
they are treated in such a horrible way. So we are making that 
a major part of our work this year, plus trafficking and 
religious freedom and all the others.
    Mr. Wolf.  There was an article about trafficking where 
your name was mentioned in Sunday's Washington Post. Did you 
see it?
    Mr. Smith. No, I didn't.
    Mr. Wolf. It was a good piece.
    Is the committee going to look at the conditions with 
regard to Bulgaria and Romania? Both Bulgaria and Romania are 
asking to join NATO. Is the committee going to look at that at 
all?
    Mr. Smith. We will be doing assessments--as we often do and 
always do--on every one of the 54 countries, as they relate to 
their agreements, and that includes human rights, religious 
freedom.
    Mr. Wolf.  Also trafficking?
    Mr. Smith. And trafficking.
    Mr. Wolf.  Whatever you do, you ought to let the 
administration know, because Romania wants to get in. I have 
reservations about them, personally.
    Mr. Smith. As do I.
    Mr. Wolf. With the new leadership.
    Mr. Smith. I recently wrote the administration and got 
other Commissioners to sign it with regards to a wholesale 
inclusion of some of the other countries that they would like 
to have included as part of NATO, that every one of them needs 
to be looked at individually.
    Mr. Wolf. Exactly. And this is an opportunity to get them 
to comply or else. Frankly, I don't think they ought to get in.
    Mr. Smith. Absolutely.
    Mr. Wolf. Well, thank you for your work.
    Mr. Smith. One thing I would say, we are going to make 
another major push on trafficking at the Berlin meeting.
    Mr. Wolf. Oh, really.
    Mr. Smith. At every one of these parliamentary assemblies I 
have offered a resolution. The first one was met with total 
derision by some of the delegations, including some of our 
former adversaries, like the Russians, who just downgraded it 
and said we have no problem, there is no human trafficking 
occurring here.
    I even met with the Speaker of the Duma in a bilateral, and 
then of course we faced off on the floor; and it was as if it 
is a solution in search of a problem. But we were able to point 
out that hundreds of thousands of Russian girls have been 
trafficked into forced prostitution, many of whom came over 
here. We since then have gotten our law enacted, the Victims of 
Violence Protection Act.
    And interestingly enough, a number of the countries in the 
OSCE are on tier 2 and even more on tier 3, which is the worst 
violators. They have a problem and are doing nothing to stop 
it.
    So we are going to make a major push, again saying, we have 
changed our law, here is our law. We routinely write all these 
countries, the Commission staff and I, and talk to the 
parliamentarians.
    For instance, when Kostunica was here to meet with the 
President, I met with him for about an hour and pointed out 
that they have to change their law. But in anticipation of 
their coming here, they cracked down and raided 400 brothels, 
because trafficking is a major problem in Serbia, in 
Yugoslavia, and shut many of them down and arrested a number of 
the criminals. And we have stressed to them now that the other 
shoe here that has to fall is to treat the women like victims.
    Mr. Wolf. Have you visited the center in Bucharest?
    Mr. Smith. Yes, I have. I was there when it got up and 
running, the SECI Center; and it is an example of cooperation 
with southeastern European countries on using law enforcement, 
but also treating the women as victims. That is what our law is 
all about, our new law.
    Mr. Wolf. And this will be an issue that you will raise at 
the Berlin meeting?
    Mr. Smith. Yes, sir. And last year, when I raised it in 
Paris, people were jumping up all over to speak to it. Now we 
need to see those parliamentarians bring it back to their 
countries and say we need a new, or we need new policies to 
concur or comport with our stated concern.
    Mr. Wolf. And I think we should transfer this to the 
Defense Department, so if they do not participate, they ought 
not get into NATO.
    Mr. Smith. It ought to be a criterion in the human rights 
analysis, because this is human slavery in its worst form. 
Forced prostitution is rape, and we can stop it, and we could 
put them out of business if we have the will.
    Mr. Wolf. Thank you for your good work. Thanks for your 
staff.
    Mr. Smith. And thank you very much.
    [The statement of Mr. Smith follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wolf. We are adjourned.
    [Testimony submitted for the record follows:]

              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




</pre></body></html>
